Washington, D.C. 20530

September 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re:

Melvin Lee Jones v. United States of America,
S.Ct. No. 20-5285

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 31, 2020. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 25, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5285
JONES, MELVIN LEE
USA

PATRICK L. BRYANT
ASSITANT FEDERAL PUBLIC DEFENDER
1650 KING STREET
STE. 500
ALEXANDRIA, VA 22314
703-600-0800
PATRICK_BRYANT@FD.ORG

